NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                    OF
      TELESIS COMMUNITY CREDIT UNION

             Report #OIG-13-05
              March 15, 2013




             William A. DeSarno
             Inspector General




               Released by:
             James W. Hagen
          Deputy Inspector General
                         Table of Contents


Section                                                   Page




ACRONYMS AND ABBREVIATIONS                                 ii


EXECUTIVE SUMMARY                                          1


INTRODUCTION AND BACKGROUND                                4


OBJECTIVES, SCOPE, AND METHODOLOGY                         7


RESULTS IN DETAIL                                         10

  A. Why Telesis Community Credit Union Failed            10

  B. NCUA Supervision of Telesis Community Credit Union   19


OBSERVATIONS                                              23


RECOMMENDATIONS                                           24


APPENDIX

  A. NCUA Management Response                             27




                                                                 i
ACRONYMS AND ABBREVIATIONS

AEP             Annual Examination Scheduling Program
AIRES           Automated Integrated Regulatory Examination System
ALLL            Allowance for loan and lease losses
AMAC            Asset Management Assistance Center
BP              Credit Union Business Partners CUSO
Call Reports    NCUA 5300 Call Reports
                [C]apital Adequacy, [A]sset Quality, [M]anagement,
CAMEL           [E]arnings, and [L]iquidity/Asset-Liability Management.
CEO             Chief Executive Officer
CFR             Code of Federal Regulations
CRE             Commercial real estate
Credit Union    Telesis Community Credit Union
CUID            CU Indirect CUSO
CUSO            Credit union service organization
CUV             CU Vehicles CUSO
DFI             California Department of Financial Institutions
DOR             Document of Resolution
EVP             Executive Vice President
FCU Act         Federal Credit Union Act
FHLB            Federal Home Loan Bank
FPR             Financial Performance Report
GAGAS           Generally Accepted Government Auditing Standards
HRD             Human Resources Director
LOC             Line of credit
LUA             Letter of Understanding and Agreement
MBL             Member business loan
MLR             Material Loss Review
NCUA            National Credit Union Administration
NCUSIF          National Credit Union Share Insurance Fund
NET             National Exam Team
OIG             Office of Inspector General
P&A             Purchase and Assumption
PCA             Prompt Corrective Action
Premier         Premier America Credit Union
RFE             Risk-Focused Examination
SBS             Small Business Services
TCCU            Telesis Community Credit Union
WCC             Work Classification Code




                                                                          ii
Material Loss Review – Telesis Community Credit Union
OIG-13-05



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP (Moss Adams) to conduct a Material Loss Review
(MLR) of Telesis Community Credit Union (TCCU or the Credit Union), a federally
insured credit union chartered under the California Department of Financial
Institutions (DFI). We reviewed TCCU to: (1) determine the cause(s) of the Credit
Union’s failure and the resulting estimated $77 million loss to the National Credit
Union Share Insurance Fund (NCUSIF); (2) assess NCUA’s supervision of the
Credit Union; and (3) provide appropriate suggestions and/or recommendations to
prevent future losses. To achieve these objectives, we analyzed NCUA examination
and supervision reports, as well as related correspondence. We interviewed NCUA
officials and regional staff, and reviewed NCUA guidance, including regional policies
and procedures, and NCUA 5300 Call Reports (Call Reports) and Financial
Performance Reports (FPRs).

We determined Telesis Community Credit Union failed for the following reasons:

      •   Loan Concentration
          TCCU management maintained a heavy concentration in member business
          loans (MBLs), particularly commercial real estate (CRE) loans, based on its
          exception to NCUA Rules and Regulations Part 723. 1 TCCU management
          built its portfolio primarily around a five-year balloon payment structure that
          grew quickly and became geographically dispersed. As the state of the Credit
          Union eroded, management sold the best performing loans in an effort to
          offset shrinking net worth, ultimately leaving an unhealthy loan portfolio.
      •   Allowance for Loan and Lease Loss
          Comments regarding the Allowance for Loan and Lease Loss (ALLL)
          appeared in all examinations reviewed. The Credit Union failed to properly
          impair individual loans and use loss rates on the loan pools that were
          reflective of current conditions. These failures resulted in $8 million in NCUA
          and external auditor prompted adjustments between 2006 and 2008.
      •   Business Model and Strategy
          Strategic misreads by the Board and management led to increased
          commercial real estate lending and a dependence on fee and service income
          from its majority-held credit union service organization (CUSO) without
          consideration of the effects of a significant economic downturn on either
          source. In addition, purchases of the unprofitable AutoSeekers and Autoland
          CUSOs without appropriate due diligence led to increased operating expense
          and impairment loss.



1
    12 CFR 723.17


                                                                                        1
Material Loss Review – Telesis Community Credit Union
OIG-13-05



    •   Management Decisions and Board Oversight
        Auditors and examiners noted several internal control failures, including an
        ineffective internal audit function. The Credit Union also made strategic
        missteps in acquiring the AutoSeekers and Autoland CUSOs. In addition, our
        review of NCUA working papers noted the potential that these purchases
        were for the benefit of a party related to the TCCU Chief Executive Officer
        (CEO). In this same vein, Autoland and the Business Partners (BP) CUSOs
        both held the TCCU Executive Vice President (EVP) as their CEO and the
        TCCU CEO as the Chairperson of the Board. Twice, the TCCU CEO, in her
        dual roles as Autoland Chairperson and TCCU CEO, requested and
        approved, respectively, a line of credit extended to Autoland.

        Conversely, BP held significantly greater deposits with TCCU than was
        insured by NCUSIF, despite the CAMEL rating and net worth of the Credit
        Union, again indicating transactions at less than arm’s length. These
        transactions did not appear to have been discussed by the Board which itself
        appears to have been hindered by late delivery of voluminous Board packets.
        Eventually, the EVP accused both the CEO and Chairman of the Board of
        unethical behavior. Although not quantifiable, we consider this evidence of
        conflicts of interest.
    •   Excessive Operating Expenses
        TCCU’s operating expenses were high relative to industry standards and
        exceeded revenue from 2007 through its demise in 2012. There were several
        contributing factors to the high level of operating expenses, including
        administrative salaries and benefits, building costs, and recognition of
        impairment related to the acquisition of the Autoland CUSO. Total expenses
        were likewise high, due to the aforementioned operating expenses, and
        additional provision for loan and lease losses proposed by examiners and
        external auditors.
We concluded that management underestimated the potential effects of downturns
in the real estate market and overall economy on the loan portfolio and its ability to
generate revenue from the BP CUSO. 2 This was seen in both the size and
character of the loan portfolio, and the methodology used to reserve for related
losses, i.e., the ALLL.

We determined NCUA could have prevented or mitigated the loss to the NCUSIF
had they taken a more timely and aggressive supervisory approach regarding
TCCU’s concentration risks in its loan portfolio. We also determined NCUA could
have coordinated more effectively with the California DFI, and not created a lack of
continuity in the supervision of TCCU from an ever-shifting regional authority, which
may have contributed to the lack of an aggressive approach.

2
 We consider TCCU’s business strategy a separate but related contributor to the demise of the Credit Union,
which is discussed in more detail later in the report.


                                                                                                              2
Material Loss Review – Telesis Community Credit Union
OIG-13-05



As a result of our review, we made three observations as well as identified an issue
related to CUSOs similar to one reported in a prior OIG MLR and are therefore re-
emphasizing the corresponding recommendation. In addition, we are making two
new recommendations. The first relates to higher capital requirements and the
second relates to the adequate assessment and documentation of the analysis of
the capital requirements.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




                                                                                       3
Material Loss Review – Telesis Community Credit Union
OIG-13-05



INTRODUCTION AND BACKGROUND

The National Credit Union Administration Office of Inspector General contracted with
Moss Adams, LLP to conduct an MLR for Telesis Community Credit Union, as
required by Section 216 of the Federal Credit Union Act (FCU Act), 12 U.S.C.
1790d(j). TCCU was a state chartered credit union located in Chatsworth,
California.

History of Telesis Community Credit Union
In 1965, NCUA chartered Telesis Community Credit Union under the Federal Credit
Union Act as “Teledyne Employees Federal Credit Union.” The original field of
membership included employees of the three Teledyne Companies, but grew to
include a geographic membership encompassing the area northeast of Los Angeles,
as well as employees of over 500 businesses including the ancestors of the original
Teledyne companies. Membership as of the March 2012 Call Report was 37.5
thousand with total assets of $301 million.

On October 2, 1998, NCUA granted TCCU an exception to the aggregate MBL limits
in NCUA Rules and Regulations Part 723, because member business lending was
the Credit Union’s core business. In 1999, the Credit Union applied for and received
a state charter from the California Department of Financial Institutions (California
DFI). 3 Also at this time, the Credit Union changed its name to Telesis Community
Credit Union, 4 and still retained its exception to the aggregate member business
lending limits.

In 2002, TCCU established the Credit Union Business Partners (BP) CUSO as a
single-member California limited-liability corporation. The TCCU EVP acted as the
CUSO’s registering agent and later became the CUSO’s CEO. The Chairman of the
Board for the CUSO was also the TCCU Chief Executive Officer.

The model behind BP was to participate and service MBLs originated by owner
credit unions, including TCCU. By 2010, seventeen credit unions held equity in BP
although TCCU remained the majority shareholder.

In 2007, TCCU purchased two additional CUSOs, AutoSeekers and Autoland. 5 The
CEO of AutoSeekers at the time was a related party to TCCU’s CEO. TCCU
purchased AutoSeekers in April 2007 and disbanded it in December of the same
year. Autoland showed consistent losses from the time of acquisition through
conservatorship.


3
  According to TCCU’s 2010 Employee Handbook, this re-chartering was in response to restrictions on
opportunity for field of membership expansion resulting from lawsuits initiated by the banking industry.
4
  In 1990, the Credit Union had undergone a name change from Teledyne Employees Federal Credit Union to
Teledyne Federal Credit Union to reflect changing membership.
5
  TCCU assimilated AutoSeekers into the CU Indirect (CUID) CUSO and assimilated Autoland into the CUV,
LLC CUSO.


                                                                                                           4
Material Loss Review – Telesis Community Credit Union
OIG-13-05



For the year ended December 31, 2007, TCCU posted both its highest total revenue
and expense since at least 2002. The result was a net loss of approximately $13.5
million. The Credit Union posted consistent net losses throughout the remainder of
its operating life, 2009 through 2011, with an average net loss of approximately
$10.8 million per year.

In January 2009, supervision of the Credit Union passed from Region V to the
National Examination Team (NET), 6 where it remained for approximately one year.
Supervision moved from the NET to Region III in January 2010.

In June 2010, the NCUA signed a Letter of Understanding and Agreement (LUA)
with the Credit Union, which NCUA amended in May 2011 to allow NCUA to run the
bidding process for a potential merger partner. NCUA held a bidders’ meeting in
November 2011, and NCUA’s Office of the General Counsel approved an
emergency merger. However, several weeks later, the Credit Union could not
identify an appropriate merger partner.

In March 2012, the NCUA approved an NCUSIF-guaranteed line of credit for $73
million. Shortly thereafter, the NCUA authorized a temporary Cease and Desist
Order and subsequently the California DFI placed the Credit Union under the
conservatorship of the NCUA. On June 1, 2012, the California DFI placed Telesis
into liquidation and appointed the NCUA as liquidating agent. Premier America
Credit Union (Premier) of Chatsworth, California immediately purchased and
assumed Telesis’ members, deposits, core facilities, and consumer loans. NCUA
estimated the loss to the NCUSIF at approximately $77 million; however, NCUA will
not know the final cost until all assets are sold.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL 7 components, and reviewing qualitative and quantitative measures.
NCUA uses the CAMEL Rating System for evaluating the soundness of credit
unions on a uniform basis, the degree of risk to the NCUSIF, and for identifying
those institutions requiring special supervisory attention or concern. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union’s overall


6
  In response to the economic downturn, NCUA activated the National Examination Team (NET) in 2009. The
team was a specialized group of examiners responsible for supervising credit unions experiencing difficulties as
well as a select group of mostly more complex credit unions. NET was dissolved by NCUA on January 1, 2010.
7
  The acronym CAMEL derives its name from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.


                                                                                                               5
Material Loss Review – Telesis Community Credit Union
OIG-13-05



financial condition. At the conclusion of an examination, examiners assign a CAMEL
rating.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis, 8 trend analysis, 9 reasonableness analysis, 10
variable data analysis, 11 and qualitative data analysis. 12 Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the numbers
to determine the significance of the supporting ratios and trends. Furthermore, the
NCUA requires examiners to determine whether material negative trends exist,
ascertain the action needed to reverse unfavorable trends, and formulate, with credit
union management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program
In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include reviewing off-site monitoring tools and
risk evaluation reports as well as on-site work. The RFE process includes reviewing
seven categories of risk: Credit, Interest Rate, Liquidity, Transaction, Compliance,
Strategic, and Reputation. Examination planning tasks may include: (a) reviewing
the prior examination report to identify the credit union’s highest risk areas and areas
that require examiner follow-up; and (b) analyzing Call Reports as well as the risks
detected in the credit union’s operations and in management’s demonstrated ability
to manage those risks. A credit union’s risk profile may change between
examinations. Therefore, the supervision process encourages the examiner to
identify those changes in profile through:

    •    Review of quarterly Financial Performance, Risk, and Call Reports;

    •    Communication with credit union staff; and

8
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
9
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
10
   As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
11
   Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
12
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the Credit Union’s current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.


                                                                                                                 6
Material Loss Review – Telesis Community Credit Union
OIG-13-05



     •   Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the Annual Examination Scheduling
Program (AEP). 13 NCUA indicated these changes were necessary due to adverse
economic conditions and distress in the nation’s entire financial structure, which
placed credit unions at greater risk of loss. The NCUA stated that the Annual
Program would provide more timely relevant qualitative and quantitative data to
recognize any sudden turn in a credit union’s performance.

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material
loss review when the NCUSIF has incurred a material loss. 14

The objectives of the MLR were to:

     1. Determine the cause(s) of the Credit Union’s failure and the resulting loss to
        the NCUSIF;

     2. Assess the NCUA’s supervision of the institution, including implementation of
        the Prompt Corrective Action (PCA) requirements of Section 208 of the FCU
        Act; and

     3. Make appropriate observations and/or recommendations to prevent future
        losses.

To accomplish our review, we performed fieldwork at the NCUA’s Region III office in
Atlanta, Georgia. The scope of this review covered the period from January 2006
through conservatorship in March 2012.

To determine the cause(s) of TCCU’s failure and assess the adequacy of NCUA’s
supervision, we:

     •   Completed the Risk Assessment, which included a review of the Exam
         Overviews as well as other risk considerations, including the CUSO
         subsidiaries and the effects of the CFR Part 723 Member Business Loan
         statutory exception to the aggregate loan limit.



13
   The AEP requires either an examination or a material on-site supervision contact within a 10 to 14 month
timeframe based on risk-based scheduling availability.
14
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.


                                                                                                                 7
Material Loss Review – Telesis Community Credit Union
OIG-13-05



    •   Prepared a chronology and summary table of regulatory examination,
        reviewed exam files, including exam reports, risk assessments, findings,
        documents of resolution, confidential sections, corrective actions, off-site
        monitoring, correspondence and analysis, and summarized findings.

    •   Reviewed the Board of Directors minutes and Board packets, as well as
        Supervisory Committee minutes provided. Also reviewed NCUA Board
        minutes related to the conservatorship of TCCU.

    •   Reviewed the external consolidated financial audits, related management
        letters, and member account verification reports, including results, findings
        and responses.

    •   Conducted interviews of key individuals involved with the examination and
        supervision of TCCU, including NCUA regional examiners and directors,
        Problem Case Officers, and an official from AMAC. We also interviewed
        examiners from the California DFI and an official of Premier, the financial
        institution that purchased certain assets of TCCU’s during the liquidation
        process.

    •   Prepared industry and peer comparisons, correlations and ratios on a variety
        of factors including net worth, expenses, return on assets, net interest
        margins, loans, shares, and members.

    •   Evaluated loan activity by type and geography, as well as the methodology
        and calculation of loan loss provisions and allowances.

    •   Developed a timeline and summary of enforcement actions taken by the
        NCUA from 2006 through liquidation. Assessed NCUA supervision,
        considered the joint exams NCUA conducted with the California DFI, and
        evaluated the timeliness of supervisory actions, including examiner comments
        and findings, as well as communication and follow up procedures.

We relied upon the materials provided by the NCUA OIG and Region III officials,
including information and other data collected during interviews as well as during
examinations performed by the California DFI. Where appropriate, we also relied on
information gathered from electronic files seized from TCCU Management.

We used computer-processed data from NCUA’s AIRES and NCUA online systems.
We did not test controls over these systems; however, we relied on our analysis of
information from management reports, correspondence files, and interviews to
corroborate data obtained from these systems to support our audit conclusions.

We conducted this review from June 2012 through March 2013, in accordance with
Generally Accepted Government Auditing Standards (GAGAS) and included such
tests of internal controls as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,

                                                                                        8
Material Loss Review – Telesis Community Credit Union
OIG-13-05



appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The scope of this audit included an analysis of TCCU from January 2006 to March
2012, the date the California DFI placed the Credit Union under the conservatorship
of the NCUA. Our review also included an assessment of NCUA regulatory
supervision during the same period.




                                                                                  9
Material Loss Review – Telesis Community Credit Union
OIG-13-05



RESULTS IN DETAIL

We determined that Telesis Community Credit Union’s (TCCU) management and
Board caused the failure and resulting loss to the NCUSIF. Specifically, TCCU
management and Board made poor strategic decisions which led to an over reliance
on member business lending, particularly in commercial real estate, and a
dependence on fee and service income from its CUSO. Several other factors
contributed to the demise of the Credit Union including management not establishing
an appropriate ALLL methodology, and allowing for an excessive level of operating
expenses. Although not a direct cause for the failure, we also determined
management did a poor job over the acquisition of its CUSOs by not performing
appropriate due diligence, and created the appearance of a conflict of interest in the
CUSO acquisitions. We also determined NCUA could have prevented or mitigated
the loss to the NCUSIF had they taken a more timely and aggressive supervisory
approach regarding TCCU’s concentration risks in its loan portfolio. In addition, we
determined NCUA could have coordinated more effectively with the California DFI,
and been more consistent when assigning supervisory responsibility of the Credit
Union.

A. Why Telesis Community Credit Union Failed

                         TCCU maintained a heavy concentration in member
  Heavy Loan             business loans, particularly commercial real estate loans.
  Concentration          TCCU held an NCUA Rules and Regulations Part 723
  in MBLs Led to         exception granted by NCUA during the period when TCCU
  TCCU’s Failure         was a federally chartered credit union. The Credit Union
                         retained this exception when it later became a state
chartered credit union. The Credit Union leveraged this exception to originate a
number of large business loans with industry and geographic concentrations in
areas vulnerable to economic downturns. TCCU management contributed to the
Credit Union’s demise by using an inappropriate ALLL methodology for reserving for
the MBLs by using estimates that were dependent on historical factors that did not
reflect rapid changes in economic conditions.

Our analysis of TCCU’s Financial Performance Reports (FPRs) noted that from 2006
to 2011, the Credit Union’s loans averaged 118 percent of shares, an amount
significantly higher than the industry average of 77 percent for the same period. In
order to originate loans, TCCU borrowed from the Federal Home Loan Bank (FHLB)
and Western Corporate Credit Union, which resulted in significant borrowing costs.
Additionally, in the September 2011 examination (Effective), examiners noted the
necessity to pledge loans as collateral created pressure to inflate their grading. The
fact that TCCU failed to adopt a policy to appropriately grade substandard loans in
response to the DOR issued during the December 2009 examination (Effective)
corroborates this.

Further, we determined that TCCU commonly used loan terms based on a five-year
balloon structure in order to generate fees. Regional officials told us they believed
                                                                                   10
Material Loss Review – Telesis Community Credit Union
OIG-13-05



TCCU grew too fast, continuing to originate loans although the Credit Union began
modifying loans as early as 2006. The result was a balance sheet susceptible to
economic downturns.

In addition to the overall size of TCCU’s portfolio, its geographic profile presented
significant risk. During our inspection of the BP loan trial balance obtained during
the 2010 NCUA CUSO review, we determined that the majority of the loans were to
businesses located in California (52%), with additional loans originated to
businesses in Nevada (7%), Arizona (3%), and Florida (2%). Each of these states
experienced significant commercial real estate contraction during the economic
downturn. Table 1 (below) presents TCCU’s loan concentration percentage by
state.

Table 1



                     TCCU Loan Concentration by State
     60%
           52%
     50%


     40%


     30%


     20%


     10%         7% 6%
                       5%
                            3% 3% 3% 2% 2% 2% 2%
                                                 1% 1% 1% 1% 1% 1% 1% 1% 1% 1% 1% 1% 1%
      0%




Conversely, we noted that TCCU’s overall portfolio showed loans in 29 states. 15
Such a wide dispersion indicates that management was branching into areas outside
of its area of geographic expertise. 16

We determined that examiners were aware of the risk presented by the MBL
portfolio. Specifically, the September 2007 examination (Effective) noted concerns

15
  Table 1 includes only those loans originated by TCCU.
16
  The category “Other” in Table 1 includes Idaho, Montana, South Dakota, Utah, Washington, and Wyoming,
each of which represented less than 1 percent of the total portfolio and for clarity, are shown in aggregate.


                                                                                                                11
Material Loss Review – Telesis Community Credit Union
OIG-13-05



about concentration risk related to individual borrowers and to CRE loans in general,
which were $274.8 million, or 44 percent of assets. The examiner noted that the
sub-prime meltdown could affect commercial real estate and that TCCU was at
particular risk. As predicted by the examiners, between 2007 and 2011, TCCU had
difficulty generating income because of high loan losses and decreased loan
demand, which resulted in lower loan and fee income. As discussed elsewhere in
this report, excessive operating costs amplified the effect of the downturn on net
worth.

Part 702 of the NCUA Rules and Regulations specify mandatory and discretionary
actions based on net worth categories. Therefore, the net worth ratio takes on
particular significance for the credit union industry. In the face of eroding net worth,
TCCU management compensated by adopting a strategy of decreasing total assets.
Our review of TCCU’s loan portfolio during this period showed a significant decrease
in the total loan portfolio as shown in Table 2.

Table 2



                   TCCU's Change in Loan Portfolio Over Time
    $600,000,000
    $500,000,000
    $400,000,000
    $300,000,000
    $200,000,000
    $100,000,000
              $0
                     Dec-2006    Dec-2007     Dec-2008   Dec-2009   Dec-2010   Dec-2011



Examiners concluded that this strategy eliminated TCCU’s healthy loans from the
portfolio, which were attractive to buyers, leaving only the underperforming loans.
By 2012, delinquencies had risen to twice the net worth of the Credit Union.

 Inaccurate                  Inherently, a large MBL portfolio covering a wide
 Allowance for               geographic area presents a valuation risk and requires a
 Loan and Lease              robust methodology for calculating the ALLL. TCCU’s
                             calculations included inappropriate assumptions about
 Loss Calculations
                             individually considered loans and relied upon historical
                             trends, which did not reflect actual conditions, to
anticipate losses in loan pools.

Regarding TCCU’s ALLL issues, we determined that examiners commented on the
ALLL in every examination conducted, with the severity and frequency of their

                                                                                          12
Material Loss Review – Telesis Community Credit Union
OIG-13-05



comments increasing as time went forward. As previously noted, many of the issues
related to TCCU’s ALLL were due to failure in impairing individual loans and using
an inappropriate basis for loss projections on loan pools. For instance, examiners
noted in several examinations between December 2006 and 2009 that the Credit
Union consistently used historical factors that were not a realistic reflection of
prevailing economic conditions. TCCU was applying a zero percent historical loss
rate over MBLs based on three-year historical data when current delinquency data
internally and industry-wide predicted significantly higher loss rates.

Examiners noted the following in the September 2008 examination:

        “The ALLL methodology and adequacy of funding does not adequately
        address and prepare the credit union for the potential loan losses in 2009.
        The contention that the credit union has not suffered sufficient historical
        losses in many of these pools does not provide any assurance it will not in the
        future; in fact, recent events across the entire savings, thrift, and credit union
        industry have proven this theory flawed. The loan portfolio contains very
        large and complex loans that could cause sudden and material effects on the
        credit union’s net income; from relatively little charge offs. Methodology was
        revised and additional $6M funding done at 12/31/08.”

TCCU’s ALLL grew from $1.2 million in 2006 to $23.7 million in 2011, which included
$8 million in adjustments required by examiners and external auditors. In
September 2011, examiners noted that since December 31, 2009, TCCU had
reduced assets through Federal Home Loan Bank (FHLB) borrowing pay offs and
run-off of brokered certificates of deposit. This resulted in a reduction of assets from
$478.7 million to $334.1 million. As discussed above, management culled the best
performing loans, leaving a smaller and less healthy CRE portfolio with an
underfunded ALLL.

                            As previously mentioned, TCCU relied upon a single
 TCCU’s Business            product – business loans – to generate most of its
 Model and Strategy         interest income, which was but one strategy among
 Lacked Judgment            several management developed without sufficient
                            consideration and judgment. Another TCCU
management strategy relied on the Credit Union’s majority-held CUSO, Credit Union
Business Partners (BP). BP sold loan participations and generated servicing income
from loans originated by TCCU and other shareholders. As shown in Table 3
(below), from 2006 to 2011, Other Operating Income and Fees accounted for nearly
50 percent of the Credit Union’s total income, indicating management relied heavily
on sources of income outside of their loan portfolio.




                                                                                       13
Material Loss Review – Telesis Community Credit Union
OIG-13-05



Table 3


                                                        Components of TCCU's Income
                                         Other Operating and Fee Income      Interest on Loans     All Other Income
                                  70%
     Percentage of Total Income




                                  60%
                                  50%
                                  40%
                                  30%
                                  20%
                                  10%
                                  0%
                                        Dec-2006    Dec-2007      Dec-2008    Dec-2009      Dec-2010   Dec-2011




Following 2007, the Credit Union’s operating income, fee income, and interest on
loans all declined sharply, which began the degradation of TCCU’s net worth and
consequently, its net worth ratio. TCCU’s lending strategy led to a situation where
the economy restricted options to participate and service loans. To maintain its net
worth ratio and stave off regulatory action, TCCU sold its loans, thus reducing its
capacity to generate its main source of income – loan interest.

TCCU management’s strategic missteps were not solely limited to the MBL arm of
the Credit Union. In 2007, the Credit Union acquired the AutoSeekers CUSO
without conducting a comprehensive financial and operational analysis and did not
follow the due diligence guidance provided by NCUA in a Letter to Credit Unions. 17
The CUSO was disbanded later that same year and TCCU purchased another
CUSO, Autoland, again without performing appropriate due diligence. Purchasing
Autoland was intended to exploit “opportunities” to capture the auto lending market
share; however, there was no assessment to identify adverse effects from this
purchase on TCCU’s financial condition. As a result, in 2008 and 2009, auditors
recognized impairments related to goodwill and trademark/logo acquired in this
purchase. Losses were $2.0 million and $2.1 million, respectively. 18

Autoland was never profitable to TCCU. Despite examiner recommendations that it
be divested, it remained a part of TCCU through cessation.



17
 Letter to Credit Unions 01-CU-20, “Due Diligence Over Third Party Service Providers.”
18
 This report discusses other issues related to the purchases of the AutoSeekers and Autoland CUSOs in the
Management Decisions and Board Oversight section of this report.


                                                                                                                      14
Material Loss Review – Telesis Community Credit Union
OIG-13-05



                            We determined TCCU’s management and Board made a
 Questionable               series of questionable decisions. Specifically, examiners
 Management                 noted poor internal controls in the December 2009
 Decisions and              examination (Effective), which observed that the internal
 Board Oversight            audit function was neither adequate nor effective, and
                            that the internal audit manager did not provide written
recommendations or findings to the Supervisory Committee or Board of Directors.
The internal auditor reported directly to the CFO.

In addition, when TCCU acquired the AutoSeekers and Autoland CUSOs in 2007,
the CEO of AutoSeekers was related to the CEO of TCCU, which we believe raises
the question of whether the purchase of Autoseekers constituted an arm’s length
transaction. We noted no discussion of this potential conflict of interest in the TCCU
Board minutes.

Like AutoSeekers, Autoland was acquired without appropriate due diligence, and
NCUA examiners and Regional officials told us they believe that TCCU purchased
both AutoSeekers and Autoland for the benefit of the related party. Although we
found no evidence to substantiate the examiners’ and Regional officials’ belief, we
were able to determine that no discussions surrounding potential conflicts of interest
ever took place among members of the TCCU Board.

In a related transaction, TCCU management extended a $1.2 million line of credit
(LOC) to the unprofitable Autoland in 2008. In 2009, this LOC was upgraded to $5
million dollars. In both cases, TCCU’s CEO, who also acted as Chairperson of the
Autoland Board, approved the LOCs. Although we found no evidence that the initial
LOC was approved by the TCCU Board, our review of the June 2009 Board minutes
revealed that the Board approved the LOC upgrade, and actually increased it from
the $4 million originally requested to $5 million.

Examiners also noted that conflicts of interest existed in the organization of the BP
CUSO where the TCCU CEO served as Chairperson of the Board and the TCCU
EVP served as CEO. Further, examiners noted that BP held shares equal to $12
million at TCCU. This deposit was well over the insured limit at a time when TCCU
was known to be under-capitalized, indicating that decisions were undertaken that
did not satisfy the requirement of an arm’s length transaction.

Based on our review of TCCU’s Board minutes, we concluded that managerial
decisions were concentrated in two people, the CEO and the EVP, with very little
depth or reliance on the skills of the rest of the Credit Union’s staff. The CEO
appears to have had a persuasive and aggressive management style. The CEO
was well known in the industry and viewed as strategically successful, particularly
due to the historical success of BP. Thus, the Board tended to follow her
recommendations with little discussion.

We found some of the minutes for both the Board and the Supervisory Committee
were missing. Although the packets we did obtain contained voluminous reports,

                                                                                      15
Material Loss Review – Telesis Community Credit Union
OIG-13-05



we found very little substantive discussion related to strategy, risk management, or
related party activity. We were also unable to identify diligent follow-up on issues
raised by examiners. We were told that the delivery of packets to Board members
was so late that a thorough read and understanding of the details and trends was
unlikely.

We found evidence the CEO controlled information through a misleading statement
communicated in the Treasurer’s report, which was recorded in the TCCU Annual
Meeting minutes dated May 25, 2011. The minutes noted the following excerpt from
the Treasurer’s report:

        “[T]elesis continues to be a strong, safe and stable institution, serving over
        38,000 members. In 2010, we returned nearly $3.5 million in the form of
        dividends to those members, and we continued to be a well-capitalized
        institution. Telesis continues to meet the challenges of the unpredictable
        economy while always remembering to put our members first; holding firm to
        the cooperative spirit of ‘people helping people.”

TCCU was under an LUA at the time, which was followed by the temporary Cease
and Desist Order issued in March 2012.

In carrying out its fiduciary duty first as Conservator, then as Liquidator, NCUA
seized files from TCCU. Within these documents, we noted a response made by the
TCCU Human Resource Director (HRD) to allegations made by the EVP in
September and October 2011 (during the period when NCUA approved an
emergency merger) against the CEO. These included assertions that the CEO had
acted unethically and threatened retaliatory action against the EVP. For those
allegations investigated directly by the HRD, he concluded there was no supporting
evidence. We believe such infighting between the two most senior members of
management reflects a failure to put the needs of the members first during a period
when the Credit Union most needed clear leadership.

Although we cannot quantify the effects of questionable decisions made by
management or the apparent lack of oversight by the Board, it is reasonable to
assert that the evidence indicates ineffective Board oversight contributed to poor
strategic decisions at TCCU.

                  TCCU’s operating expenses were higher than industry standards.
 Excessive
                  TCCU experienced adjustments to its ALLL and impairments of its
 Operating
                  intangible assets; however, we determined TCCU had more rapid
 Expenses
                  growth of operating expenses versus revenue prior to these
                  adjustments, a trend that continued through the period up to
December 2007, when income was increasing. Further, once income began to fall,
expenses failed to decline as quickly, continuing the degradation of net worth.

TCCU’s total expenses exceeded its ability to generate revenue. We determined
that the last time TCCU’s total revenues exceeded their total expenses (by $5.4
                                                                                     16
Material Loss Review – Telesis Community Credit Union
OIG-13-05



million) was in 2006. By 2007, the year when revenues reached their peak, TCCU’s
total expenses exceeded total revenues by $7.6 million and continued to exceed
revenues by an average of $10.2 million per year throughout the remainder of the
Credit Union’s existence. Table 4 (below) presents TCCU’s total income and
expenses from 2006 through 2011.

Table 4



                       TCCU's Total Income and Expense
  $80,000,000
                                   TOTAL INCOME         TOTAL EXPENSE
  $70,000,000
  $60,000,000
  $50,000,000
  $40,000,000
  $30,000,000
  $20,000,000
  $10,000,000
            $0
            Dec-2006       Dec-2007        Dec-2008     Dec-2009        Dec-2010   Dec-2011


During the September 30, 2008 examination (Effective), NET examiners identified
an inadequate operating budget, high operating expenses, a lack of full and fair
disclosure related to goodwill/intangible asset impairments and the ALLL
(management changed its methodology for impairment resulting in a decrease in
ALLL). In addition, examiners noted other areas of concern including high cost of
funds, insufficient alternative sources of liquidity, deficient loan administration
practices, and the lack of discussion in Board meetings on operating expenses,
despite the fact that said expenses were contributing substantially to the negative
earnings.

Examiners also noted in the September 2008 examination that the 2009 budget
projected a loss of $5.6 million, with a significant rise in operating costs due to an
increase of $2.4 million in salary expense. Of that amount, examiners noted that
$1.7 million related to the new retirement plan for the CEO and EVP.

Through our review of NCUA working papers, we learned that TCCU management
contributed further to the excessive operating costs by constructing two buildings
that were far bigger than necessary and the construction costs went far over budget
because material costs, particularly steel costs, were not set prior to building and
increased dramatically during the period of construction.



                                                                                              17
Material Loss Review – Telesis Community Credit Union
OIG-13-05



In order to determine the effects of operating costs independent of valuation
adjustments, we prepared an analysis of the trend in the net worth ratio eliminating
the provision for loan and lease losses expense and the two intangible asset
impairments related to the CUSO. 19 Table 5 (below) presents the effect the
valuation adjustments had on TCCU’s net worth ratio for the period from 2007
through 2011.

Table 5



                                            Effect of Valuation Adjustments on
                                             Standard Net Worth Ratio (NWR)
                                12%                   NWR ACTUAL         NWR ADJUSTED
                                11%
                                10%
     Net Worth / Total Assets




                                 9%
                                 8%                                                                          Well Capitalized
                                 7%
                                 6%                                                                  Adequately Capitalized
                                 5%                                                                          Undercapitalized
                                 4%
                                 3%                                                            Significantly Undercapitalized
                                 2%
                                 1%
                                 0%                                                               Critically Undercapitalized

                                 Dec-2007       Dec-2008           Dec-2009         Dec-2010                  Dec-2011




The result of this analysis demonstrates that operating expenses were excessive
relative to income. This analysis also supports our earlier assertion that the
business model of the Credit Union did not properly consider the potential effects of
over-reliance on business lending and dependence on fee revenue from the BP
CUSO. When the sub-prime meltdown began, revenues declined sharply.
Operating expenses, which were excessive, could not change direction as swiftly,
contributing to consistent net losses as previously shown in Table 4.




19
  Table 5 assumes no provision for loan and lease loss expense. Realistically, we could expect some level of
provision for loan and lease losses as part of normal operations for a credit union. We therefore consider our
calculations to be conservative.


                                                                                                                       18
Material Loss Review – Telesis Community Credit Union
OIG-13-05



B. NCUA Supervision of Telesis Community Credit Union

                            We determined NCUA could have prevented or mitigated
 NCUA Could Have            the loss to the NCUSIF had they taken a more timely and
 Prevented or               aggressive approach regarding TCCU’s concentration
 Mitigated the Loss         risks in its MBL portfolio. We also determined NCUA
 to the NCUSIF              could have coordinated more effectively with the California
                            DFI, and that NCUA management created a lack of
continuity in the supervision of TCCU from an ever-shifting regional authority, which
may have contributed to the lack of an aggressive approach.

Supervisory Background

TCCU received a CAMEL Composite rating of 2 in the December 31, 2006
examination (Effective), an indication of strong performance. Examiners noted the
Credit Union’s deterioration beginning with the next examination, the September 30,
2007 examination (Effective), when they downgraded the Credit Union’s CAMEL
Composite to 4. Examiners kept the Credit Union’s Composite CAMEL rating at 4
until the June 30, 2011 examination (Effective), when they downgraded it to a
Composite Camel rating of 5. The Credit Union remained a Composite CAMEL 5
through liquidation in 2012. Table 6 (below) provides Composite and specific
CAMEL ratings for the applicable examinations during the scope period of our
review.




                                                                                    19
Material Loss Review – Telesis Community Credit Union
OIG-13-05



Table 6


                                    NCUA Examination Results for TCCU**
                                                CAMEL        Capital
Examination                                     NCUA          / Net     Asset
                                          20
Effective Date        Region       Type        Composite     Worth      Quality    Management       Earnings   Liquidity
December 2006        Region V        11           2             1         2            2               2          2
September 2007       Region V        23            4            3          3             4               4        4
March 2008           Region V        23            4            3          3             4               4        4
June 2008            Region V        23            4            3          3             4               4        4
September 2008       NET             11            4            3          3             4               4        4
June 2009            NET             23            4            3          3             4               4        4
September 2009       NET             23            4            3          3             4               4        4
January 2010         Region III      11            4            4          5             4               5        4
March 2010           Region III      23            4            4          4             4               5        4
June 2010            Region III      23            4            4          5             4               5        4
June 2011            Region III      23            5            5          5             5               5        4
October 2011         Region III      11            5            5          5             5               5        4
March 2012           Region III      23            5            5          5             5               5        5
**Examination information provided by NCUA’s Region III.

Part 723 Exception and Loan Concentration

NCUA granted TCCU an exception to NCUA Rules and Regulations Part 723 for
aggregate MBL limits during its time as a federally chartered credit union, on the
basis that member business lending was its primary occupation. TCCU retained this
exception following its move to a state charter. The exception allowed the Credit
Union to originate member business loans above the aggregate limitations imposed
by Part 723 without the ability of NCUA to revoke this status directly.

We determined TCCU’s loan concentrations and degradation of the quality of the
loan portfolio were the main cause of the demise of the Credit Union. The California
DFI cited the rise of delinquencies to an amount greater than that of the Credit
Union’s total net worth among its reasons for issuing the Order of Conservation in
March 2012.

We found no evidence that the NCUA directly communicated a recommendation to
the California DFI to rescind or modify the exception until NCUA examiners issued
an LUA in June 2010. We believe such an act prior to 2007 may have slowed the


20
  Work Classification Code (WCC) Examination Type 11 is an examination or insurance review of a state-
chartered credit union. WCC Type 23 is a supervision contact of state-chartered credit union.


                                                                                                         20
Material Loss Review – Telesis Community Credit Union
OIG-13-05



growth of both TCCU’s operations and its loan portfolio, which ultimately may have
prevented or mitigated the loss incurred by the NCUSIF.

Timing and Level of Enforcement Actions

We noted that NCUA examiner’s enforcement actions were not timely or aggressive
in limiting the loss to the NCUSIF. Despite examiner concerns prior to the LUA
signed in June 2010 regarding loan quality, the ALLL methodology, high operating
expense, and deteriorating net worth, only Documents of Resolution (DORs) were
issued to TCCU to correct identified safety and soundness concerns.

Region V examiners gave TCCU a Composite CAMEL rating of 2 during the
December 2006 examination (Effective), which declined to a Composite CAMEL 4 in
the September 2007 examination (Effective), a significant decline. The subsequent
September 2008 examination (Effective) performed by the NET again resulted in a
Composite CAMEL rating of 4, with examiners issuing DORs to correct identified
issues but no formal enforcement action.

During the September 2007 examination (Effective), examiners identified rapidly
declining trends in net worth and loan quality. We believe these declining trends
coupled with the severe economic downturn and TCCU’s heavy concentration in
MBLs should have prompted examiners to take immediate and more aggressive
action. However, these same trends continued and examiners again noted them
during the March and September 2008 examinations (Effective). Ultimately, we
determined examiners took no formal corrective action at the conclusion of each of
these examinations.

During our review, we noted examiners expressed frustration in NCUA’s reliance on
6 percent to define an “adequately capitalized” institution. In the case of TCCU,
examiners estimated that the capital needed to support the risk in TCCU’s heavily
concentrated loan portfolio would have needed to be at least 15 percent. As
previously mentioned, TCCU management controlled its balance sheet to maintain
an adequately capitalized status. Examiners told us they felt they had no grounds to
employ enforcement actions until TCCU broke the 6 percent adequately capitalized
benchmark. However, our review of NCUA Rules and Regulations does not support
the examiner’s stance. Although there are mandated actions resulting from a status
of adequately capitalized and below, Section 702.1 of the NCUA Rules and
Regulations specifies the following:

           [N]either § 1790d 21 nor this part in any way limits the authority of
           the NCUA Board or appropriate State official under any other
           provision of law to take additional supervisory actions to address
           unsafe or unsound practices or conditions, or violations of
           applicable law or regulations. Action taken under this part may be

21
     This footnote is in Section 702.1 of NCUA Rules and Regulations and refers to the Federal Credit Union Act.


                                                                                                               21
Material Loss Review – Telesis Community Credit Union
OIG-13-05



        taken independently of, in conjunction with, or in addition to any
        other enforcement action available to the NCUA Board or
        appropriate State official, including issuance of cease and desist
        orders, orders of prohibition, suspension and removal, or
        assessment of civil money penalties, or any other actions
        authorized by law.

We believe once NCUA and the California DFI took a more aggressive approach,
their actions were not swift and forceful and appeared to be more reactive than
proactive. For example, TCCU signed an LUA developed in conjunction with NCUA
in June 2010, shortly after oversight of TCCU had moved to Region III. After nearly
one year, in May 2011, the parties amended the LUA to allow the NCUA to run the
bidding process for a potential merger partner. NCUA held the first bidders meeting
six months later in November 2011, however the meeting yielded no merger
partners. 22 The Credit Union continued to languish when NCUA began the process
to conserve but halted their efforts when the California DFI advised NCUA that they
would take the lead to conserve TCCU. In March 2012, nearly two years after taking
a more aggressive approach, the California DFI conserved TCCU and appointed
NCUA as conservator.

Coordination with State Oversight Agency

Based on our review of the examinations conducted for the period under scope, we
noted poor coordination between the NCUA and the California DFI. We found the
documentation in the NCUA examination working papers was overly broad in its
description of the extent and type of work performed by each agency during the
examinations, failed to record discussions held between the NCUA and the
California DFI, and did not assign responsibilities for follow-up or enforcement.
Based on available information, we determined that the NCUA and California DFI
each performed approximately half of the total test work between January 2006 and
March 2012. 23

In addition, NCUA officials indicated that once they had determined an appropriate
enforcement action, the California DFI sent mixed messages regarding whether they
would agree to the NCUA examiners’ recommendations and took considerable time
to negotiate a final resolution. NCUA officials also stated that for the NCUA to take
an action independently from a state oversight agency, in this case the California
DFI, it would be a long and difficult process.

Conversely, a DFI official stated that the NCUA process to enforce conservatorship
requires many steps with final approval necessary by the NCUA Board. The official

22
   NCUA was able to use the bids from the November bidder’s meeting to negotiate the eventual liquidation and
Purchase and Assumption (P&A) in June 2012 with Premier.
23
   During fieldwork, NCUA provided only examination working papers prepared by NCUA examiners; however,
Region III officials noted that from 2010 to 2012, they performed a majority of the examination work due to
resource limitations in the California DFI.


                                                                                                           22
Material Loss Review – Telesis Community Credit Union
OIG-13-05



indicated this last step requires coordination with the Board’s meeting schedule,
which caused further delays. 24

We found very little documentation in the working papers to support the NCUA’s or
the California DFI’s positions noted above. However, had there been better
documentation and, more importantly, better coordination between the California DFI
and the NCUA, we believe there would have been more timely actions taken, which
may have mitigated the loss to the NCUSIF.

Continuity of NCUA Oversight

During the scope period of this review, TCCU successively came under the
jurisdiction and thus the supervision of three separate examination units within the
NCUA: Region V (2006-2008), the National Exam Team (2009), and Region III
(2010-2012). Data was insufficient to determine whether the unusual succession of
examiners resulted in additional delays. However, we concluded there appeared to
be reasonable communication between examiners from among the different regions.
In addition, we also found that examination rigor and the frequency and
aggressiveness of Document of Resolution comments increased as time passed and
oversight of the Credit Union progressed successively from Region V to the NET to
Region III. 25

Although NCUA successfully handed-off TCCU internally during its supervision, we
believe it is reasonable to presume that the lack of continuity was not in the best
interest of satisfying the NCUA’s goal of providing optimal oversight for the Credit
Union. In addition, we believe NCUA’s ever-shifting regional authority may have
resulted in the aforementioned lack of a more timely and aggressive supervisory
approach to address the safety and soundness concerns identified as far back as
2007.

OBSERVATIONS

Important observations from the failure of TCCU include:

     •   When examination officials make the decision to use enforcement actions,
         those actions must be executed swiftly and firmly at all levels to effect
         genuine corrective action. The issues identified during TCCU’s supervision
         that represented safety and soundness concerns should have been elevated
         to a higher level of enforcement action sooner.

     •   NCUA’s actions to shift oversight responsibilities within the agency, as well as
         conflicts of oversight between NCUA and the California DFI may have
24
   NCUA Regulations, Section 791.5, allows special meetings to be held upon the Board Chairman’s initiative or
within fourteen days of an appropriately supported request from two Board members.
25
   We were unable to determine whether this trend related to differences between regional offices or the
increasing difficulties experienced by the Credit Union.


                                                                                                            23
Material Loss Review – Telesis Community Credit Union
OIG-13-05



         inhibited a more aggressive approach. Although NCUA seamlessly
         transitioned oversight of TCCU between regional offices and the NET, we
         believe the number of changes in supervision inherently presented obstacles
         to taking more aggressive enforcement actions.

     •   The results of our inquiry of both NCUA and the California DFI determined
         there was little collaboration in the approach to taking enforcement actions
         against TCCU, as evidenced by the lack of correspondence documentation
         regarding enforcement actions with the California DFI in NCUA’s examination
         working papers. We believe such documentation would have allowed for a
         clear audit trail of any discussions and actions taken between NCUA and the
         California DFI.

RECOMMENDATIONS

The Examiner’s Guide, Chapter 25, notes that examiners may consider
recommending a CUSO review if an examination of an affiliated credit union shows
the financial condition of the CUSO significantly affects the operation of the credit
union. 26

Examiners issued a DOR on September 30, 2007 (Effective) requiring TCCU to
“meet or exceed” BP’s budgeted net income, evidencing that NCUA considered the
financial condition of the BP CUSO important to the operation of TCCU. However,
NCUA examiners did not review the BP CUSO until December 31, 2010 (Effective),
although earlier examinations did review aspects of the lending process undertaken
at BP.

We do not consider the lack of a timely CUSO review to have been a major
contributor to the failure of TCCU, nor do we consider it likely that an earlier review
of the BP CUSO would have reduced the loss to the NCUSIF. However, we do
believe that examiners should have conducted a review of the CUSO to determine
the level of risk posed by the CUSO given the relationship between the two CEOs,
and the financial relationship between the two institutions.

We noted a similar failure by examiners to perform a timely CUSO review in OIG
Report #OIG-12-14, Material Loss Review of Eastern New York Federal Credit
Union, where the OIG reported that a timely review would have reduced the overall
loss. Given that examiners in both cases failed to perform appropriate reviews, we
consider it important to reemphasize the Recommendation from that report:

         “[R]eview current examination procedures over CUSOs to not only
         ensure regulatory compliance but most importantly, to determine


26
   The Examiner’s Guide includes other reasons examiners can recommend a CUSO review; which are not
directly relevant to this MLR.


                                                                                                      24
Material Loss Review – Telesis Community Credit Union
OIG-13-05



        whether current procedures are adequate to identify the degree of
        risk the CUSO poses to the affiliated credit union.”

Management Response

Management reiterated their response to the reemphasized recommendation
from OIG Report #OIG-12-14, which stated they agreed that examination
procedures should ensure regulatory compliance and adequately identify the
degree of risk a CUSO poses to an affiliated credit union. Management also
indicated they will evaluate the feasibility of expanding examination procedures
over CUSOs and whether to include a review of the credit union and CUSO as
standalone entities with regards to profitability. Management’s entire response
is provided in Appendix A.

OIG Response

We concur with management’s response.

In addition, we recognize that NCUA management does not have the latitude to
adjust current net worth levels because such levels are driven by statute. However,
to more effectively capture the concentration and other risks on an institution’s
balance sheet, we are making the following two recommendations:

    1. We recommend NCUA management identify and amend, as applicable,
       NCUA Rules and Regulations to require a higher level of risk based net worth
       for credit unions with higher levels of concentration or other risks in their
       member business loan portfolio.

Management Response

Management agreed and in 2013 plans to make appropriate amendments to NCUA
Rules and Regulations to require a higher level of risk based net worth for credit
unions with a higher level of concentration or other risks in their member business
loan portfolio.

OIG Response

We concur with management’s planned actions.




                                                                                   25
Material Loss Review – Telesis Community Credit Union
OIG-13-05




    2. We recommend NCUA management ensure that for those credit unions
       identified as having higher levels of concentration or other risks as outlined in
       Recommendation 1 above, examiners should specifically assess the risks
       and adequately document their review and analysis in the examination
       working papers.

Management Response

Management agreed citing several tools examiners use to identify and monitor risk,
including concentration risk in credit unions. Management indicated they will
continue to reinforce their expectation with examiners to document concentration
risk and risk conclusions. Management also indicated they plan to reinforce with
examiners analyzing appropriate capital levels through training.

OIG Response

We concur with management’s planned actions.




                                                                                      26
Material Loss Review – Telesis Community Credit Union
OIG-13-05



Appendix A – NCUA Management Response




                                                        27
Material Loss Review – Telesis Community Credit Union
OIG-13-05




                                                        28
Material Loss Review – Telesis Community Credit Union
OIG-13-05




                                                        29
